HHS/OIG-Audit--"States' Use of Voluntary Contributions Under the Title II of the Older Americans Act, (A-12-00-00002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"States' Use of Voluntary Contributions Under Title III of the Older
Americans Act," (A-12-00-00002)
February 15, 2001
Complete Text of Report is available in PDF format
(926 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Current Administration on Aging (AoA) regulations permit States (contrary to
requirements of the Older Americans Act) to use voluntary contributions to meet
cost-sharing or matching requirements of grant agreements. Our final report
points out that in Fiscal Years (FY) 1996 and 1999 States reported using $155.4
million of voluntary contributions for State matching purposes rather than expanding
services (such as congregate and home delivered meals, transportation, and in-home
support) as required by the Act. In addition, for FYs 1996 and 1999 respectively,
six States retained $9.8 million and eight States retained $11.4 million of
voluntarily contributed funds which were not used for nutrition and supportive
services. Finally, 16 States and Puerto Rico did not report $557,724 of unobligated
FY 1996 Title III funds to AoA in a timely manner. As a result,
the funds lapsed without being made available to other States. Among other things,
we recommended that AoA revise its regulations to make clear that (1) voluntary
contributions are not to be used for cost-sharing or matching, (2) accumulated
voluntary contributions are to be used prior to making Federal drawdowns, and
(3) voluntary contributions and related interest earned are program income and
must be used to expand services. The AoA generally concurred with our findings
and recommendations.